Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




DURABLE MEDICAL EQUIPMENT

PAYMENTS IN NURSING HOMES





               p,+s
                 SERVIC6$
           #                ~$q

       $                          JUNE GIBBS BROWN
       2
       w                          Inspector     General
       %
       ‘3
        %’      $
         %     %’d3a
               2                       MARCH 1996
                                      OEI-06-92-00862
                       OFFICE OF INSPECTOR                  GENERAL

The mission of the Oftlce of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspectionsconducted by three OIG operating components: the Office of Audit Services, the
OffIce of Investigations, and the OffIce of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program and managementproblems and recommends courses to correct them.

                           OFFICE OF AUDIT SERVICES

The OIG’SOffIce of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilities and are intended to provide independent assessmentsof HHS
programs and operations in order to reduce waste, abuse, and mismanagementand to promote
economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS

The OIG’SOffIce of Investigations (01) conducts criminal, civil, and administrative investigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigativeefforts of 01 lead to criminal convictions, administrative
sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud control units which
investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION                   AND INSPECTIONS

The OIG’SOffIce of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections)that focus on issues of concern to the Department, the
Congress, and the public. The findings and recommendationscontained in these inspection reports
generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs.

Dallas Staff                                                          Central OffIce

Leah Bostick                                                          Jennifer Antico
Kevin Golladay                                                        Brian Ritchie
Sarah Taylor                                                          Barbara Tedesco
Clark Thomas

For further information contact: Kevin Golladay at 214/767-3310 or 1/800-848-8960.
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 DURABLE MEDICAL EQUIPMENT

 PAYMENTS IN NURSING HOMES





                 #   SERVICt$
           ~.+                  c“
                                  9

       $
        .                             JUNE GIBBS BROWN
       .<
        z                             Inspector     General
        %
          %~ $
           +%.j~~                          MARCH 1996
            >                             OEI-06-92-00862
                     EXECUTIVE                     SUMMARY


PURPOSE

To identifi Medicare Part B payments for Durable Medical Equipment (DME) services
provided to residents in nursing homes.

BACKGROUND

 DME is equipment which can withstand repeated use, is primarily used to serve a medical
 purpose, is generally not useful to a person in the absence of illness or injury, and is
 appropriate for use in the home. To be covered by Medicare Part B, the lMZJ!?must be
furnished for use in the beneficiary’s home. Medicare defines a beneficiary’s home as his or
her own dwelling, an apartment, a relative’s home, a home for the aged, or some other type of
 institution. However, a hospital or skilled nursing facility is specifically excluded as a
resident’s home. A skilled nursing facility is defined as a facility primarily engaged in
providing skilled nursing care.

We obtained information about Part B expenditures from a 1992 nationally protectable sample
of nursing home residents from 10 Stites and 150 nursing homes. This includes residents
receiving Medicare extended care benefits in a skilled nursing facility (SNF), residents paying
for their stay with private insurance or personal fimds, residents on Medicaid, or a
combination of the above.

This inspection was conducted as a part of Operation Restore Trust (ORT). The initiative,
focused in five States, involves multi-disciplinary teams of State and Federal personnel
seeking to reduce fraud, waste, and abuse in nursing homes and home health agencies, and by
durable medical equipment suppliers.

FINDINGS

Medicare carriers allowed as much as $35 million in 1992 for DME during nursing
home stays. Of this, $27 million was paid by Medicare. The remaining $8 million was paid
by beneficiaries.

No effective mechanism currently exists to ensure the appropriate payment of durable
medical equipment under Medicare Part B for beneficiaries in nursing homes. To ensure
correct payments, clarification is needed in the program policy utilized to determining which
nursing homes are “primarily engaged” in providing skilled care.




                                               i
RECOMMENDATIONS




In attempting to address this problem, we originally developed a series of options regarding
coverage policy for durable medical equipment in nursing homes. One of those options,
which we supported most strongly in our drafl report, was to exclude payment for any piece of
durable medical equipment provided to any resident in a nursing home. We originally
believed that this option should be pursued primarily because of its administrative simplicity
and because it reflected a policy which holds nursing homes responsible for routine items
needed by their residents. Afler considering both the Health Care Financing Administration
(HCFA) and the Assistant Secretary for Planning and Evaluation (ASPE) comments on the
draft report expressing concerns about the impact of such a policy on beneficiaries and
consistency with current legal authority, we have chosen to eliminate this recommendation in
our final report.

Rather, we agree with both HCFA and ASPE that this issue should be considered within the
confkes of current law. And while we appreciate and thank ASPE for its point about the
distinction between routine and nonroutine items, which we agree can be important, our
reading of current law would prohibit any DME payment made on behalf of a resident of a
nursing facility primarily engaged in providing skilled nursing care. Further, if such a
distinction could be made, it would be easier to make based on beneficiaries’ specific
circumstances and the amount, duration and scope of need, than on categories of equipment.
We believe that to make such a distinction based on categories might invite the routine billing
of “non-routine” DME in order to qualify for payment under Part B, and potentially create an
escalation in DME payments for residents in nursing homes.

Thus, we recommend that HCFA develop and implement a workable and fair definition
of what constitutes a skilled nursing facility, for the purposes of payment of DME under
Part B. It might be that such a definition could implement a policy such as that discussed in
our draft repo~ in which Medicare certified facilities are designated as skilled nursing
facilities (whether or not they are also certified by Medicaid). However, other deftitions
might be more appropriate.

In any event, such a deffition should reflect the principle that (1) skilled nursing facilities are
responsible for the provision of a basic range of services to the residents under their care, and
(2) a skilled nursing facility cannot be considered a home for the purposes of DME coverage
under Medicare Part B.

We have previously recommended that HCFA institute appropriate payment safeguards
to ensure that payments for DME are not made for beneficiaries in a Medicare covered
SNF stay. The H(2FA agreed. We refer readers to our report, “Payment for Durable Medical
Equipment Billed During Skilled Nursing Facility Stays,” for more discussion of the options
we presented and HCFA’Sresponse.



                                                 ii
Cost Savings:     The exact amount of savings that could be obtained by the Federal
Government in implementing this recommendation depends on a number of factors, including
the definition of skilled nursing facilities. To illustrate, assuming a scenario where 75 percent
of the facilities are deemed to be skilled facilities, we estimate roughly $23.5 million in
savings (of which 80 percent is saved by the program and 20 percent by beneficiaries) would
accrue from implementing both this recommendation and our prior recommendation regarding
payment during Medicare covered SNF stays.

COMMENTS

The fill text of the HCFA and the ASPE comments are provided in Appendix B. Since we
revised the recommendation from the draft report, HCFA’Sproposed action to revise and
improve the Medicare criteria for identifying a “skilled” facility would implement the action
which we agree is appropriate.




                                                .. .
                                               111
                             TABLE OF CONTENTS


 EXECUTIVE         SUMMARY


INTRODUCTION              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3


         DMEpayments in 1992 . . . . . .                       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..3


         Noeffective mectism                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...9


APPENDICES


        Part BClassification ofDMESemices                         . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


        AgencyComents                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-1

                              INTRODUCTION


PURPOSE

To identifi Medicare Part B payments for Durable Medical Equipment (DME) services
provided to residents in nursing homes. 1

BACKGROUND

DME is equipment which can withstand repeated use, is primarily used to serve a medical
purpose, is generally not usefid to a person in the absence of illness or injury, and is
appropriate for use in the home. DME includes such items as wheelchairs, hospital beds,
canes, crutches, oxygen concentrators, and nebulizers. In addition, reimbursement may be
made for necessary repairs and maintenance of the equipment under specified conditions.

DME is reimbursed using a fee schedule. Five categories of DME have been established, each
with a different reimbursement methodology. These five principle DME payment categories
include:

   1)	 inexpensive or other routinely purchased DME, defined as equipment costing less than
       $150 or which is purchased at least 75 percent of the time;
   2) items requiring frequent and substantial servicing;
   3)	 customized items, which are defined as equipment constructed or modified
       substantially to meet the needs of an individual patient, with fee schedule amounts
       determined by carriers without regard to average or reasonable charges;
   4) other DME frequently referred to as “capped rental”; and
   5)	 oxygen and oxygen equipment, requiring frequent and substantial servicing, with
       payment calculations based on the average Medicare reasonable charge.

Equipment may be covered under Medicare’s Supplemental hxmrance Program (Part B), if it
is fkrnished for use in the beneficiary’s home. Medicare defines a beneficiary’s home as his
or her dwelling, an apartment, a relative’s home, a home for the aged, or some other type of
institution. However, a hospital or skilled nursing facility is specifically excluded as a
resident’s home.

In the past, Medicaid nursing homes were classified as facilities providing skilled nursing care
(SNF), providing intermediate care (ICF), or as providing both. The distinction was
important, as some ICFS provided care at a level that could be considered a beneficiary’s
residence for DME payment purposes. 2 This determination was generally made by the State
agency and communicated to the local carrier. However, with legislative changes to the
certification process prescribed in the Omnibus Budget Reconciliation Act of 1987, the
ICF/SNF certification distinction was removed. All nursing homes now meet the same
certification standards of a Medicare-participating SNF.

This inspection was conducted as a part of Operation Restore Trust (ORT). The initiative,
focused on five States, involves multi-disciplinary teams of State and Federal personnel
seeking to reduce fraud, waste, and abuse in nursing homes and home health agencies and by
durable medical equipment suppliers.



                                               1

SCOPE

This report is one of two reports on DME for nursing home residents. The other report,
Payment for Durable Medical Equipment Billed During Skilled Nursing Facility Stays, was
limited to DME billed for residents receiving extended care benefits in a Medicare nursing
home providing skilled or rehabilitative care. Since such a nursing home is specifically
excluded as a beneficiary’s “home,” all Part B payments for DME in that setting should have
been denied. We identified approximately $8.9 million in 1991 and $10.8 million in 1992 of
incorrect DME payments in nursing homes providing extended care benefits.

This report expands our review to include not only residents receiving extended care benefits
in a Medicare-certified nursing home, but also any Medicare-eligible resident in any Medicare
or Medicaid-certified nursing home.

METHODOLOGY

Data for this inspection was obtained from a nationally protectable two-stage random sample
of 150 nursing homes from Californi~ Delaware, Florida, Indian% Kansas, Louisiana, Maine,
Michigan, Montan~ and Wyoming (1Oper State). Stratification was based on facility size
(large, medium, and small).

Each sample nursing home provided us with a list of all Medicare-eligible residents residing
in the nursing home during 1992, along with each resident’s corresponding date(s) of stay.
After verification of the beneficiaries’ health insurance claim numbers (HICN) with the
Medicare enrollment database, all Medicare services provided during the nursing home stay
were extracted from the Medicare National Claims History File for calendar year 1992. The
Supplementary Medical Insurance (SMI) for the Aged and Disabled services (Part B
Medicare), processed by both the carrier and the intermediary, were identified. Data from the
sample were projected to the total nursing home population (residents in Medicare or
Medicaid-certified nursing homes).

Our review was conducted in accordance with the Quali~ Standards for Inspections issued by
the President’s Council on Integrity and Efficiency.




                                              2

                                           FINDINGS


Carn”ersAllowed $35 Million in 1992 for DME During Nursing Home Stays.

An estimated $35 million3 was allowed ($27 million paid) for DME billed during a
beneficiary’s stay in a Medicare and/or Medicaid-certified nursing home. The remaining $8
million was paid by or on behalf of beneficiaries. However, the exact amount of incorrect
payment is dependent upon whether the nursing home qualified as the beneficiary’s residence.

�	   Over 80 percent of the allowed charges were for wheelchairs, beds, oxygen equipment,
     and related supplies.

Most of the DME payments were for the rental or purchase of oxygen equipment, wheelchairs,
beds, and related items. (See Figure 1.)


                                Most DME Payments Were For


                  I             Oxygen Equipment, Wheelchairs,
                                   Beds, and Related Items

                                  Other DME
                                 ($6.7
                                                            Oxygen Equipment
                                                               and Supplies
                       Hospital Beds                          ($14.2 Million)
                      and Accessorle
                        ($5.1 Million)




                                         Wheelchairs and
                                          Acceesoriee
                                          ($9.3 million)

                    SourcmlS92 fnsslnghomessmpls


                                              Figure 1

The most often rented or purchased oxygen equipment is the oxygen concentrator which
delivers 4 liters per minute. The most expensive item in the wheelchair category is the
standard wheelchair with fixed arms and detachable legs. For beds, the semi-electric bed is
the largest expense.

The items for which payments were made reflect atypical array of medical equipment
necessary for nursing homes to have in order to serve their residents. Further, with the
exception of some oxygen equipment and perhaps some wheelchairs, these are not
sophisticated, customized, or high technology items. In addition to hospital beds and basic
wheelchairs, the payments were for walkers, canes and crutches, commodes, seat/patient lifts,
and pressure pads.




                                                       3

“	 Overall, DME payments are attributable to less than 5 percent of all nursing home stays,
   with moderate differences between States and sizeable variations among nursing homes.

During 1992,4.6 percent of all nursing home stays had DME allowed charges for Medicare
residents in nursing homes. Among the 10 sample States, the percentage of stays with DME
ranged from an estimated high of 7.7 percent in Maine to an estimated low of 1.4 percent in
Kansas. However, among nursing homes, there are sizeable variations in the percent of stays
with DME. While the average percent of stays with DME was 4.6 percent, some 38 percent
of nursing homes exceeded this amount, and 10 percent exceeded 10 percent.

�	   As much as a third of these DME payments may have been made for beneficiaries in a
     Medicare covered SNF stay.

We previously estimated4 that approximately $11 million in DME payments under Medicare
Part B were made for beneficiaries in Medicare covered SNF stays during 1992. This more
general estimate, using a different methodology, includes these payments (as well as payments
for beneficiaries who have exhausted their Medicare benefits and/or whose stays are paid by
Medicaid, private insurance, or out of pocket).

“    The certification status of the nursing home appears to have little impact on DME billing.

We looked at the certification status of the nursing home and found little variation in the
levels of DME billing. This was regardless of whether the nursing home was Medicare-
certified, dually certified for both Medicare and Medicaid, or Medicaid-only certified.

�    19 percent of the DME payments were made within one week of discharge or death.

While DME should not be billed during a “skilled” nursing home stay, some of the billing
may have been for DME intended for use at the beneficiary’s residence following his or her
discharge from the nursing home, In reviewing payments occurring within a short time of
discharge, we found $6.8 million (or 19 percent) billed within seven days of leaving the
nursing home. However, we were unable to determine if the person went home or to another
inpatient facility. We do know that one-half million dollars can be attributed to residents that
died. Figure 2 shows the allowed charges within 7 days of discharge.




                                                4

                                                     19 Percent of DME Was Provided
            Allowed
                                                             Within One Week of Discharge

            Ii%%%

               2“51    $2.3


               2.0


               1.5

                               ----$1,2
                                                                               ““”””””””””=
                                                                             2------------------------------------   --

               1.0             m.
                                    $1.0
                                         .   .   .   .   .   .   .   .


                                                                         w

                0
                        1           2	                                   3                4              5                6   7


        I                                                                DAYS TO DISCHARGE
                                                                                                                                  I
        I    Source:   1992 nursing home sample
                                                                                                                                  I
                                                                              Figure 2



No effective mechanism currently exists to ensure the appropriate payment of durable
medical equipment under Medicare Part B for beneficiaries in nursing homes.

As indicated earlier, a skilled nursing facility is specifically excluded from consideration as a
beneficiary’s residence, for the purposes of payment under Part B for durable medical
equipment.

While policy is clear that a resident in a Medicare covered skilled nursing facility @NF) stay
would not be eligible for coverage of durable medical equipment under Part B (even though
some such payments were still made, as discussed earlier), Medicare currently has no
mechanism which otherwise determines when a beneficiary is residing in a skilled nursing
facility.

As indicated earlier, prior to passage of OBRA 1987, Medicare used certification tiorrnation
to make the distinction between skilled nursing facilities and other facilities. The OBRA
1987 eliminated this distinction and the mechanism Medicare used to make payment
decisions. No new mechanism has been developed to replace it.

Without a formal mechanism for defining whether, or under what conditions, DME is covered
in a nursing home, carriers were forced to adopt their own policies. Resulting policies
generally denied DME coverage if provided in a nursing home setting. Generally, this denial
was based on the supplier’s designation of the place of service as a “nursing home.” This




                                                                                                   5

policy is confkned by our finding that virtually none (0.4?40)of the payments in our sample
were coded with place of service “nursing home.”

In 99 percent of instances where DME payments were made, suppliers submitted claims with
the place of service coded as “home” (91 percent) or “other unlisted facility” (nine percent).
We cannot say whether suppliers coded the place of service in this way in order to avoid a
denial of the claim, or represented the place of service as home because they in fact
considered it a beneficiary’s residence.




                                               6

                         RECOMMENDATIONS


In attempting to address this problem, we originally developed a series of options regarding
coverage policy for durable medical equipment in nursing homes. One of those options,
which we supported most strongly in our &all report, was to exclude payment for any piece of
durable medical equipment provided to any resident in a nursing home. We originally
believed that this option should be pursued primarily because of its administrative simplicity
and because it reflected a policy which holds nursing homes responsible for routine items
needed by their residents. After considering both HCFA and ASPE comments on the draft
report expressing concerns about the impact of such a policy on beneficiaries and consistency
with current legal authority, we have chosen to eliminate this recommendation in our final
report.

Rather, we agree with both HCFA and ASPE that this issue should be considered within the
confbes of current law. And while we appreciate and thank ASPE for its point about the
distinction between routine and nonroutine items, which we agree can be important, our
reading of current law would prohibit any DME payment made on behalf of a resident of a
nursing facility primarily engaged in providing skilled nursing care. Further, if such a
distinction could be made, it would be easier to make based on beneficiaries’ specific
circumstances and the amount, duration and scope of need, than on categories of equipment.
We believe that to make such a distinction based on categories might invite the routine billing
of “non-routine” DME in order to qualifi for payment under Part B, and potentially create an
escalation in DME payments for residents in nursing homes.

Thus, we recommend that HCFA develop and implement a workable and fair definition
of what constitutes a skilled nursing facility, for the purposes of payment of DME under
Part B. Itmight be that such a definition could implement a policy such as that discussed in
our draft report, in which Medicare certified facilities are designated as skilled nursing
facilities (whether or not they are also certified by Medicaid). However, other definitions
might be more appropriate.

In any event, such a definition should reflect the principle that (1) skilled nursing facilities are
responsible for the provision of a basic range of services to the residents under their care, and
(2) a skilled nursing facility cannot be considered a home for the purposes of DME coverage
under Medicare Part B,

We also suggest that HCFA consider a provision allowing for case-by-case, beneficiary based
determinations of special circumstances; grandfathering in current beneficiaries receiving
DME under Part B while in a nursing home, to avoid disruption in their services. We agree
with ASPE that the policy should allow billing for DME provided in the last week of a
resident’s nursing home stay, regardless of payer, to facilitate discharge planning when the
DME is intended for use in the resident’s home.




                                                 7

We have previously recommended that HCFA institute appropriate payment safeguards
to ensure that payments for DME are not made for beneficiaries in a Medicare covered
SNF stay. The HCFA agreed. We refer readers to our report, “Payment for Durable Medical
Equipment Billed During Skilled Nursing Facility Stays,” for more discussion of the options
we presented and HCFA’Sresponse.

Cost Savings:   The exact amount of savings that could be obtained by the Federal
Government in implementing this recommendation depends on a number of factors, including
the definition of skilled nursing facilities, programmatic controls implemented to expressly
allow or prevent cost shifting to other parts of the Medicare program, the Medicaid program,
or beneficiaries. Additionally, controls must be adequate to detect incorrect place of service
coding by suppliers.

A rough estimate of savings can be derived as follows. From the total $35 million in allowed
amounts, we subtract $6.8 million for payments made in the last week of a nursing home stay.
Of the remaining $28 million, roughly a third is addressed by implementing our previous
recommendation regarding nonpayment during Medicare covered SNF stays, for a savings of
$9.3 million. Assuming a new policy defining most nursing facilities as “skilled”
(conceivable given marketplace conditions and law which have increased nursing facility
capacity and staffing) would affect 75 percent of billings, savings for the remaining $19
million would be $14.2 million. (These savings are shared by beneficiaries in copayments.)
Thus, a total of $23.5 million savings (of which 80 percent is saved by the program and 20
percent by beneficiaries) accrues by implementing both this recommendation and the prior
recommendation we made regarding payment during Medicare covered SNF stays in this
scenario.

COMMENTS

The key points of HCFA and ASPE comments are discussed in the introduction to our revised
recommendation. The full text of their comments are provided in Appendix B. Since we
revised the recommendation, HCFA’Sproposed action to revise and improve the Medicare
criteria for identifying a “skilled” facility would implement the action which we agree is
appropriate.




                                              8

                                   ENDNOTES

 1.	   While this report deals with DME services provided in nursing homes, a companion
       report, Payment for Durable Medical Equipment Billed During Skilled Nursing
       Facility Stays (OEI-06-92-00860) discusses DME services solely in the Medicare
       SNF environment.

2.	    Until the nursing home reform of OBRA 1987, the Health Care Financing
       Administration administratively denied coverage of DME in nursing homes by the
       rules used to determine “primarily engaged in” (PEI). The PEI question was
       determined by a mathematical formula identifying the ratio of caregivers to nursing
       home beds or residents (e.g., if more than 1 caregiver to 15 residents, then the
       facility was deemed to be a PEI/ICF nursing home regardless of whether any skilled
       or rehabilitation patients were in the nursing home.) As a result, most Medicaid
       certified nursing homes providing (then) ICF level care could not qualify as a
       “home” under the administrative rules.

       As a result of OBRA 1987, certification is no longer based on levels of care and
       specific staffing ratios. Instead, facilities providing skilled care and/or rehabilitative
       services are categorized along with facilities that formerly were categorized as ICFS.
       Any nursing home providing any of these three types of care is now considered a
       nursing facility under the Federal statute affecting the Medicaid program. However,
       we learned that not all States have reorganized their State programs along these
       lines. Specifically, several States continue to license nursing home beds as skilled,
       intermediate, sheltered living, and other categories.

3.	    At the 95 percent cotildence level, we project Part B charges for DME between
       27.4 million and 43.4 million were made in 1992 on behalf of residents during
       nursing home stays.

4.	    Estimate can be found in our report entitled, “Payment for Durable Medical
       Equipment Billed During Skilled Nursing Facility Stays” (OEI-06-92-00860).




                                               9

                APPENDIX                 A


  PART B CLASSIFICATION              OF DME SERVICES




   Components    of DME and Applicable HCPCS Codes



Hospital Beds and Accessories
 BedCodes: E0250,0251,0255,0260,0265,0266,0294,0296
 BedAccessoryCodes: E0272,0277,0310,0325
Oxygen Equipment and Supplies
 Codes: EO41O,430,435,457, 1400,1401,1402,1403,1404,QO036,
        0040,0042,0043,0046
 Mist Code: E1399
 OxygenSupplyCodes: E0457
Wheelchairs   and Accessories
 WheelchairCodes: E1031,1060,1083,1084,1085,1086,1087,
                  1088,1089,1090,1092,1093,1100,1130,1140,
                  1150,1160,1170,1180,1213,1220,1221,1222,
                  1223,1224,1240,1250,1260,1270,1280,1285,
                  1290,1295,1296,1297,1298
 WheelchairAccessoryCodes: E0950,953,959, 961,963,971, 978,
                           990,991,992,993,994, 996,997,
                           1069
Walkers

Codes: E0130, 0135,0141,0143,0147

Canes and Crutches
codes: Eoloo, 0105,0114
Commodes

Codes: E0163, 0164,0165,0166,0167

Seat/Patient Lifts
Codes: )30627,0630
Pressure  Pad or Cushion or Mattress
Codes: )30176,0178,0180,0181,0182, 0184,0185,0186,0191, 0192,
       0193,0196,0199




                            A-1

                                                             APPENDIX               B

                                   ASSISTANT      SECRETARY               FOR PLANNING AND EVALUATION
                                                                     COMMENTS
               --
               *.4.,,
         ..-            ..
     >




‘4                      c

.-                                DEPARTMENT   of HEALTH a HUMAN SERVICES€                OIhmdhw Ssm-v
‘...
          “.,.%,.                                                                         ~          D.c -l


                                                                JW16~



                             w:          CIaudia Cooley
                                         Executive !hfxo~

                             I:ROI! .    .Uting Assistant-          tbr
                                          Phnirqg ond Evalusition




                                                                                              . —.




                                                                             B-1

m a nursing home payment rate. .4s a resuh, we are unable to identi~ which Medicare Part B
DhlE payrncnts arc made for routine nu~ing home sewims (i.e., serviecsthat should be incltid
in a nursing home paymem rate) and which sre no~ Further, while we understand current law
Iimi[s Part B DME to persons who are residing in [heir ‘%ome~ it is not clear when a numing
home residcmt(i.e., in non-PartA covered stay} is permsndy residing in such a fidity, and,
thus, is at home in the fkdity, versus a resid~t chat is reeeiving shon-term care and intends to
rtm.umhome. ‘Io e~wc t&t kneficizi~ ~ @ iqpmpria~iy denied n~ed cOV~C, ~
twlicy prohibiting Part B IX4E payments to all nursing home residents would have to ~C
 hat Part B DME piiymerm are for rourine or core mtrsing ho~ semiccs and that there are no
.ong-terrn, p~antilt nursioghome re~dm~ for ~~             be n~ing home ~, in tit, become
their home. We do not be{ievethat these uc accuraN~~io~                Fuxther,we are concemcd
lhdt denying Medicare Part B Di%lEpaymen~ to nursinghome~id~~ couldhave a negat.ivc
[f*t on their quality of care. llerefo~ we bdieve, at leastin the interim the Department
shotid presume that nursing~o~ ~iden~ in a ~on.p~ A ~v~            SW s~y we rcsidlng in
their “home’” and permit l’art B Dh& payments on behalf of such residents in need of these
supp~ies, We recommend the OIG study this issue and recommend a categorization of
equipment routinely covered in nursing home payment rates and DIMEnot routinely included in
such rates. A review of State Medieaklnursing fheilhypayment methods may provide some
insight into this issue.

 Finally, we recommend that the emclusion of thk report clearly indicate that Part B DME
payments made within a week of dke.barge for ~ nw~ home resident (regardkss ofpaycr)
who is c]igible for Part B are appropriateto faci[i~ dischargeplanning.
                                                   I            1
Part B Services in Nursing Homes                   I
We rccmnmend includtig in the Bae@ound seet$n a discussion of the circ UMSWLCH under
which Medkare Part B payments on behalfof nursinghomeresidentsare appropri~, h
diflicuhies in idcntifyhg when such payments are~inappropriat~and the variable impaot that
proposals to limit MediearePart B paymentswill @ve on difFerentnursing home residmna (i.e..
~ose k a Part A coveredSl@ stay, those who mpg       and those who are also e@ible for
Medicaid) and on State and Federal govesmmmts I

We understand hat the OIG intends to umkrtak j study of Stale Medicaid nursing fm%lity
payment rates and methods. We agree that such a study is needed in order to undcrstartd when
dupliae payments have been made (i.c, Medkare and Me&aid both have paid) and when
Medicaid cost sharing is inappropriate.




                                               B-2

                                        HEALTH CARE FINANCING ADMINISTRATION
                                                      COMMENTS


        ,, $twc,’   +,
  *0+

 **
:
:
                            DEPARTMENT OF HEALTH&        HUMAN SERVICES                       Health Care Financing Administration
s
 8    -g
  % .,,,M
     >
                                                                                              The Administrator
                                                                                              Washington, D.C.    20201




                         DATE          DEc1519m
                         TO           June Gibbs Brown


                         FROM
                                      Administrator       ~U

                         SUBJECT      OffIce of Inspector General Drafi Report: “Durable Medical Equipment
                                                                                                   . .
                                      Paymentsin Nursing Homes,”(OEI-&L92-00862)


                         We reviewed the above-referenced report which examines how suppliers ensure their
                         durable medical equipment payments will be made by submitting claims that incorrectly
                         code the place of sewice as “home” or “othef’ rather than “nursing home.” Attached are
                         our comments on the report recommendation.

                         Thank you for the opportunity to review and comment on this draft report.

                         Attachment




                                                                     B-3

 Comments of the Health Care Financing Administration (HCFA) on Office of In.mector
 General (OIG) Dra.flReDort “Durable Medical Euuit)ment Pavments in Nursing Homes.”
                                 (OEI-06-92-00862j


 OIG Recommendation

 OIG recommends that HCFA never pay for durable medical equipment (DME) suppIies

 or equipment for any patient residing in a Medicare or Medicaid-catified nursing home,

 regardless of level of care, by implementingthe followingactions:


              Clearly designate that no Medicaid-or Medicare-certiiied facility,
              regardless of the patient’s level of care, is a patient’s “home” for DME
              payment purposes.

              Consider developing an additional Common Working File edit to ident@ a
              possible nursing home stay (in addition to the Medicare extended care
              benefit stay alert already in plan) overlapping any DME claim.

              Require Medicaid agencies to deny Medicare crossover ckirna for DME
              (crossover refers to claims processed and paid by Medicare for dual
              eligibles, for whom Medicaid is required to pay the coinsurance and
              deductible for the beneficiary) unless the State has determked the ikcility
              qualifies as a residence according to the previously stated criteria. Further,
              re@re Medicaid agenciesto report to HCFAall denials involving DME for
              dually eligible nursing home residents.

       .      Direct contractorsto informnursing homes of their status for DME
              payment purposes, and routinely communicate to suppliers that DIMEis not
              covered if provided to nursing home residents (clearly specifying that the
              DME can only be provided on or after the date of discharge to the
              beneficiary’s home from the nursinghome).

HCFA Resnonse

The above recwmrnendationwould impose a blanketPart B exclusion of DME payment in

all Medicare skilled nursing fkilities (SNF) and all Medicaid nursing fkilities (NF).

However, as the law is currently wri~     we cannot do this for all Medicaid NFs (see

attached).


We do hope to sirnpl@ this process considerably by introducinga set of rebuttable
administrativepresumptions undera proposed rule (BPD-834-P) that we are currently
developing. The proposed rule would revise and improvethe Medicare criteria for
identifying a “skilled facility” (i.e., a nursinghome meetingthe basic definition of a SNF




                                              B-4

                                   .    .


          Medicare Pati B Coverwe Escluskn for Durabk MedicalEauipment
                 (DME} tirnkbed m a Skilled Nurahu FaciKtv(~


o	   ‘l%cMc&amlaw(atsection 1861(n)of the Social Seaxity Act(tk Act) providesfor
     PtiBm~ofD~~~                        fm&ka_s-P=+*tit
     bmlleiaallidtutimthat   meets the   “     oft& Act at sections1861(e)(l) (fbr
     -)        ~ 18f90#(l) (tl!rSNFs). ~

o	   Section 1819(a)(l) (kncziy aec.tionI&l(j)(l)) of the A4 in-      &&s an ‘SNF”
     -~w~                  “ Uutiaprimarilyeugage        dhlp-akiuednursing
     (dauae (A)) orrahabiiitatka services (clause (33))to its rasideats.

     +	      lbia~huhaivasNFd dinitionomitathes    peci&lnomrwtridive
                 .          .
                         emtamedrntbemnainckof     aectkm1819+@nmeds        tbatsn
             .   .   .
             m8&tutumustmeet rnaderto@kipate       intk Medicampgramaaa
             Q!a#&4~.
     +       ~rnexcl&ngPartB's     DMEcovcmgeilumWNFs"aadc6mxiinaection
             18M(8)(l~C4mgmaaintemkdfbrthisadlniontoqqllymtaaiyto
                 .       . . .
             ~sNP*butakotohmmutka
                . . .                                     *M~
             pmkl@mgin~           doprolidethetype ofcaXedmxibed rnthataectionof
             UU!lmu.




                                            B-6

                            OPERATION RESTORE TRUST
                               AND NURSING HOMES


On May 3, 1995, President Clinton announced a new anti-fraud initiative undertaken by the

Department of Health and Human Services. Led by the OffIce of Inspector General in

partnership with the Health Care Financing Administration and the Administration on Aging,

this project utilizes the expertise of many Federal, State, and private sector

personnel. They will direct their combined energies to crack down on Medicare and Medicaid

fraud, waste, and abuse initially associated with home health agencies, nursing homes,

hospices, and durable medical equipment suppliers. They will work closely with the

Department of Justice and an intergovernmental team comprised of other Federal and State

personnel.


In addition to identi~ing  and penalizing those who defraud the government, the project is

designed to alert the public and industry to the ilaud schemes or vulnerable areas in policy.

To aid in this endeavor, the OffIce of Evaluation and Inspections will work within the OffIce

of the Inspector General to perform its primary mission of conducting evaluations that provide

timely, usefid, and reliable information and advice to the pertinent decision makers involved

in the demonstration. To this end, the following reports on nursing homes have been

completed:


    Medicare Services Provided to Residents of Skilled Nursing Facilities (OJV-06-02-00863)

    Medicare Payments for Nonprofessional Services in Skilled Nursing Facilities (OEI-06-92-O0864)

    Payment for Durable Medical Equipment Billed During Skilled Nursing Facility Stays (OEI-06-92-
    00860)

    Part B Services in Nursing Homes -An Overview (OEI-06-92-00865)

    Enteral Nutrient Payments in Nursing Homes (OEI-06-92-00861)

    Durable Medical Equ@ment Payments in Nursing Homes (OEI-06-92-00862)


Ongoing evaluations are being conducted related to Medicare payments for residents of
nursing homes for such services as mental health therapy, wound care, imaging, Jwspice,
ambulance transportation, and nail debridement. Also under review are duplicate payments
between Medicare and Medicaid for nursing home services.
